No. _________________________

In The

Supreme Court of the United States
____________________
PAUL D. VOORHEES, MAJOR, USAF,
Applicant-Petitioner,

versus
UNITED STATES OF AMERICA,

Respondent.

____________________________
Application for Extension of Time to File a
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Armed Forces
DONALD G. REHKOPF, JR.

Counsel of Record
Law Office of Donald G. Rehkopf, Jr.
31 East Main Street, 2nd Floor
Rochester, NY 14614
(585) 434-0232
usmilitarylaw@gmail.com

BENJAMIN H. DEYOUNG, MAJOR, USAF
Appellate Defense Division
Air Force Legal Operations Agency
1500 West Perimeter Road, Suite 1000
Joint Base Andrews, MD 20762
(240) 612-4770
benjamin.h.deyoung.mil@mail.mil

October 18, 2019

In The

Supreme Court of the United States
____________________
PAUL D. VOORHEES, MAJOR , USAF,

Applicant-Petitioner,

versus
UNITED STATES OF AMERICA ,

Respondent.

_____________________
Application for Extension of Time to File a Petition for a Writ of Certiorari
to the United States Court of Appeals for the Armed Forces

To the Honorable John G. Roberts, Jr., Chief Justice of the United States:
Pursuant to Supreme Court Rules 13.5, 22, and 30.2, the Applicant-Petitioner,
Major Paul D. Voorhees, USAF, by and through his counsel, respectfully requests a 46
day extension of time, to and including Monday, December 23, 2019, in order to file a
Petition for a Writ of Certiorari. In support of this application, we state the following:
1.

Major Voorhees was convicted after trial by a general court-martial of a

number of offenses under the Uniform Code of Military Justice [UCMJ], and originally
sentenced on 9 January 2015, to inter alia, a Dismissal and three years confinement.
On appeal to the Air Force Court of Criminal Appeals [AF CCA], that Court reversed
his conviction for sexual assault under 10 U.S.C. § 920, Article 120, UCMJ, on the
grounds of factual insufficiency, ordered that Charge and its Specification dismissed
with prejudice, and remanded the case back to a court-martial for re-sentencing on the
remaining Charge and Specifications.

1

2.

Upon re-sentencing, Applicant-Petitioner’s approved sentence was simply

a Dismissal. He served almost two years of confinement before being released from
confinement prior to his re-sentencing proceedings. Major Voorhees then again
appealed to the AF CCA. On 20 July 2018, that Court affirmed the guilty findings and
new sentence. He then petitioned the U.S. Court of Appeals for the Armed Forces
[CAAF] for review. As relevant here, CAAF granted review on this issue:
[W]hether the military judge erred when she failed to
instruct the panel on a mens rea for Article 133, UCMJ [10
U.S.C. § 933].
79 M.J. 5, *9 (CAAF 2019). CAAF’s decision denying relief was rendered on 27 June
2019.
3.

This Court decided Rehaif v. United States, 139 S.Ct. 2191 (2019), on 21

June 2019–involving the proper interpretation of a mens rea or scienter element.
Major Voorhees timely sought reconsideration at CAAF which denied reconsideration
on 8 August 2019, 2019 WL 4274171, without opinion.
4.

The 90 day time-period for Major Voorhees to file a Petition for a Writ of

Certiorari thus ends on November 7, 2019. On behalf of Applicant-Petitioner, a 46 day
extension until December 23, 2019, is respectfully requested for the following reasons:
a.

The undersigned Counsel of Record was just recently retained by

Major Voorhees. Military co-counsel, Major DeYoung was assigned to the case after
CAAF’s decision and the transfer of Applicant-Petitioner’s former military Appellate
Defense Counsel to a different duty assignment. Neither were counsel at any stage of
the proceedings below.

2

b.

This was a litigated trial by a general court-martial, there was an

initial appeal to the AF CCA, which in turn reversed and dismissed with prejudice, the
sexual assault conviction under 10 U.S.C. § 920 for factual insufficiency, affirmed the
§ 933 convictions, set aside the sentence, and remanded the matter back to a new
court-martial for re-sentencing purposes. After that, the case went back on appeal to
the AF CCA, which affirmed, and CAAF granted review thereafter. As such, counsel
must familiarize themselves with not only the trial transcripts–both of the original
court-martial and re-sentencing proceedings, but voluminous appellate documentation
in order to produce the best possible work-product.
c.

This application is not filed for purposes of delay. In addition to the

sheer size of the case file at this juncture as well as counsels’ other client commitments
and schedules, this additional time is respectfully both necessary and reasonable.
5.

JURISDICTION: This Court has jurisdiction pursuant to 28 U.S.C. §

1259(3), as CAAF granted Major Voorhees’ Petition for Review.
6.

CAAF’s decision below affirmed the convictions of five Specifications

[counts] of violating 10 U.S.C. § 933, Article 133, UCMJ, for “conduct unbecoming an
officer and a gentleman.” CAAF held that the mens rea or scienter instructional
requirements articulated in Elonis v. United States , 135 S.Ct. 2001 (2015), do not
apply to military “general intent” offenses. Nor did CAAF acknowledge the concept that
a mens rea element be “read into” a criminal statute that does not contain any intent
element, such as 10 U.S.C. § 933. If allowed to stand, this precedent will bind all future
prosecutions under the UCMJ, where Congress has not specified a mens rea or scienter

3

element. But, under this Court’s long line of mens rea cases, especially Rehaif, an
accused must at least know that his or her “conduct” is “unbecoming” before one can
be convicted of violating this statute, thus triggering a mens rea or scienter instruction.
Here, the Members [jurors] were not so instructed.
7.

This case is a serious candidate for certiorari review. It raises the question

whether the fundamental tenet that a criminal statute–other than a strict liability
offense–contain (or be read in) a mens rea element as elucidated in Elonis v. United

States, 135 S.Ct. 2001 (2015), and more recently in Rehaif v. United States, 139 S.Ct.
2191 (2019), applies to criminal prosecutions under the Uniform Code of Military
Justice. There is no principled reason for it not to be.
8.

RELATED CASE:

Major Voorhees’ situation is not an isolated one

within the military justice system. There is a related case, United States v. McDonald,
Dkt. # 19-A191, pending before this Court, where CAAF held that “sexual
assault”under 10 U.S.C. § 920, is also a “general intent” offense, not requiring any

mens rea or scienter instructions to the court-martial Members as fact-finders.
McDonald is likewise seeking certiorari to the CAAF’s decision in his case on the mens

rea issue.
9.

The potential impact of CAAF’s holding is significant to our Nation’s

service men and women where, as here, CAAF has sanctioned, e.g., the criminal
conviction of Major Voorhees for simply expressing in private, his wishful thinking (or
fantasy), by stating, “I’d like to take you back to my room.” Absent a mens rea or
1

1

The relevant language for that Specification states:
(continued...)

4

scienter element to that language means–at least under CAAF’s interpretation of

Morissette v. United States , 342 U.S. 246 (1952),2 Elonis , and Rehaif , that expressing
one’s thoughts, regardless of any intended offensiveness or “evil-meaning mind,” is a
crime under the UCMJ–something incompatible with the Constitution.

WHEREFORE, an extension of time is respectfully requested herein.
Respectfully submitted, this 18th day of October, 2019.

_________________________________
DONALD G. REHKOPF, JR.
Counsel of Record
Law Office of Donald G. Rehkopf, Jr.
31 East Main Street, 2nd Floor
Rochester, NY 14614
(585) 434-0232
usmilitarylaw@gmail.com

BENJAMIN H. DEYOUNG, MAJOR, USAF
Appellate Defense Division
Air Force Legal Operations Agency
1500 West Perimeter Road, Suite 1000
Joint Base Andrews, MD 20762
(240) 612-4770
benjamin.h.deyoung.mil@mail.mil

1

(...continued)
[Major Voorhees] did, at or near Las Vegas, Nevada, between on or about 1 November
2012 and on or about 31 December 2012, make to Senior Airman [HB], an inappropriate
statement or question, to wit: “I would like to take you back to my room,” or words to that
effect, and that said conduct, under the circum stances, was unbecoming an officer and a
gentleman.
Three of the remaining four convictions under 10 U.S.C. § 933, also involved speech. The remaining
offense, Charge II, Specification 2, alleged that Major Voorhees “did, at or near, Baltimore, Maryland
. . . massage the back of Senior Airman [HB] . . . .” In other words, a consensual back rub.
2

Id. at 251, the “concurrence of an evil-meaning mind with an evil-doing hand . . . .”

5

APPENDICES
Appendix “A,” United States v. Voorhees, 79 M.J. 5 (CAAF 2019). . . . . . Appdx A-1
Appendix “B,” Order denying Reconsideration (CAAF, 8 August 2019). . Appdx B-1

6

United States v. Voorhees, 79 M.J. 5 (2019)

panel members that they were to consider accused's conduct
“under the circumstances”.

79 M.J. 5
322
U.S. Court of Appeals for the Armed Forces.
UNITED STATES, Appellee
v.
Paul D. VOORHEES, Major,
United States Air Force, Appellant

Affirmed.
*8 Military Judges: Natalie D. Richardson (trial) and Mark
F. Rosenow (sentence rehearing)
For Appellant: Terri R. Zimmermann, Esq. (argued); Major
Jarett Merk and Jack B. Zimmermann, Esq. (on brief).

No. 18-0372
Crim. App. No. 38836 (reh)
Argued February 21, 2019
Decided June 27, 2019

For Appellee: Captain Anne M. Delmare (argued); Colonel
Julie L. Pitvorec, Lieutenant Colonel Joseph Kubler, and
Mary Ellen Payne, Esq. (on brief).

Synopsis
Background: Accused was convicted by general courtmartial, Natalie D. Richardson, J., of five specifications
of conduct unbecoming an officer and a gentleman and
one specification of sexual assault. The United States Air
Force Court of Criminal Appeals, 2016 WL 11410622,
set aside sexual assault conviction, but affirmed remaining
convictions. Review was granted.

Holdings: The United States Court of Appeals for the Armed
Forces, Sparks, J., held that:
trial counsel's personal attacks on defense counsel amounted
to prosecutorial misconduct;
trial counsel's personal attacks on accused's character
amounted to prosecutorial misconduct;
trial counsel's expression of personal opinions, bolstering of
his own credibility, and vouching for government witnesses
amounted to prosecutorial misconduct;
accused was not prejudiced by trial counsel's prosecutorial
misconduct, and thus, reversal of conviction was not
warranted;

Judge SPARKS delivered the opinion of the Court, in which
Chief Judge STUCKY, and Judges RYAN, OHLSON, and
MAGGS, joined.
Judge SPARKS delivered the opinion of the Court.
A panel of officer members convicted Appellant, contrary
to his pleas, of five specifications of conduct unbecoming
an officer and a gentleman and one specification of sexual
assault in violation of Articles 133 and 120, Uniform Code
of Military Justice (UCMJ), 10 U.S.C. §§ 933, 920 (2012).
The panel acquitted Appellant of one specification of conduct
unbecoming an officer and a gentleman. The members
sentenced Appellant to forfeiture of all pay and allowances,
three years of confinement, and dismissal. The convening
authority approved the sentence as adjudged.
*9 The United States Air Force Court of Criminal Appeals
set aside Appellant’s Article 120, UCMJ, conviction for
factual insufficiency, but affirmed his remaining convictions
and ordered a sentence rehearing. United States v. Vorhees,
No. ACM 38836, 2016 WL 7028962, at *2, 2016 CCA
LEXIS 752 at *2 (A.F. Ct. Crim. App. Nov. 23, 2016)
(unpublished). A military judge sitting alone conducted the
sentence rehearing for the remaining five Article 133, UCMJ,
convictions, and sentenced Appellant to a dismissal and a
reprimand. The convening authority approved the dismissal.

government was required to prove general intent mens rea in
order to convict accused of conduct unbecoming an officer;
and

We granted review to determine: (1) whether trial
counsel’s final arguments on the merits contained prejudicial
prosecutorial misconduct and (2) whether the military judge
erred when she failed to instruct the panel on a mens rea for

Military Judge was under no requirement to offer further
instruction specific to general intent mens rea after informing

Article 133, UCMJ. 1 We now hold neither issue warrants
relief.

Appdx A-001

United States v. Voorhees, 79 M.J. 5 (2019)

1

Appellant also petitioned this Court to review the mens
rea issue through a failure to state an offense analysis,
and asked us to decide it separately from the instructional
error issue. We thought it sufficient to address mens
rea solely through our review of the military judge’s
instructions.

Background
The lower court adequately summarized the facts underlying
Appellant’s offense as follows:

Appellant’s convictions for conduct
unbecoming are rooted in the sexual
comments and actions he directed
toward subordinate female Airmen
with whom he deployed or went on
temporary duty assignments (TDY)
on different occasions. Appellant is
an EC–130 pilot who performed
duty as an aircraft commander
and a co-pilot during several
deployments to Afghanistan. While
TDY, deployed, and transiting to
and from deployment, Appellant used
electronic communications to make
a variety of comments with sexual
undertones to a Senior Airman ...,
a Technical Sergeant ..., and a First
Lieutenant.... The comments included
telling the Senior Airman he wanted to
take her back to his hotel room, asking
all three individuals if they cheated
on their husband or significant other,
and asking two of them about the
undergarments they were wearing.

I. Prosecutorial Misconduct
Appellant alleges trial counsel’s findings and rebuttal
arguments contained numerous instances of prosecutorial
misconduct, ranging from personal attacks on Appellant and
his defense counsel, to improper vouching and expressing
personal opinions.
We review prosecutorial misconduct and improper argument
de novo and where, as here, no objection is made, we review
for plain error. United States v. Andrews, 77 M.J. 393, 398
(C.A.A.F. 2018). “The burden of proof under plain error
review is on the appellant.” Id. (citing United States v. Sewell,
76 M.J. 14, 18 (C.A.A.F. 2017)). “Plain error occurs when
(1) there is error, (2) the error is clear or obvious, and
(3) the error results in material prejudice to a substantial
right of the accused.” Id. at 401 (internal quotation marks
omitted) (quoting United States v. Fletcher, 62 M.J. 175, 179
(C.A.A.F. 2005)). Thus, we must determine: (1) whether trial
counsel’s arguments amounted to clear, obvious error; and
(2) if so, whether there was “a reasonable probability that,
but for the error, the outcome of the proceeding would have
been different.” United States v. Lopez, 76 M.J. 151, 154
(C.A.A.F. 2017) (internal quotation marks omitted) (quoting
Molina-Martinez v. United States, ––– U.S. ––––, 136 S. Ct.
1338, 1343, 194 L.Ed.2d 444 (2016)); see also United States
v. Tovarchavez, 78 M.J. 458 (C.A.A.F. 2019) (explaining
that, where nonconstitutional error is forfeited, the MolinaMartinez test should be applied).
As we have explained repeatedly:

Vorhees, 2016 WL 7028962, at *2, 2016 CCA LEXIS 752.
Appellant was also convicted of conduct unbecoming an
officer for giving Senior Airman HB a back massage. At
the time of this massage, “Appellant served as the aircraft
commander for an eight-member aircrew where [Senior
Airman] HB was the only female and the junior member of
the crew.” Vorhees, 2016 CCA LEXIS 752 at *4, 2016 WL
7028962, at *2.

*10 Trial prosecutorial misconduct is
behavior by the prosecuting attorney
that oversteps the bounds of that
propriety and fairness which should
characterize the conduct of such an
officer in the prosecution of a criminal
offense. Prosecutorial misconduct can
be generally defined as action or
inaction by a prosecutor in violation
of some legal norm or standard, e.g.,
a constitutional provision, a statute,
a Manual rule, or an applicable
professional ethics canon. Prosecutors
have a duty to refrain from improper

Discussion

©

Appdx A-002

2

United States v. Voorhees, 79 M.J. 5 (2019)

methods calculated to produce a
wrongful conviction.

Andrews, 77 M.J. at 402 (internal quotation marks omitted)
(quoting Fletcher, 62 M.J. at 178, United States v. Meek, 44
M.J. 1, 5 (C.A.A.F. 1996), and United States v. Berger, 295
U.S. 78, 88, 55 S.Ct. 629, 79 L.Ed. 1314 (1935)).
As trial counsel tried to establish his bona fides with the
court members during voir dire, he introduced himself as an
attorney of considerable experience and gravitas:
I’m Captain Josh Traeger. I’m a senior trial counsel
assigned to Peterson Air Force Base. In that capacity I
travel around the world, between 200 and 250 days a year,
prosecuting the Air Force’s most serious cases.
....
... And on behalf of the Unites State [sic] of America, I am
happy to be prosecuting this case.
Despite his self-described expertise, trial counsel’s findings
and rebuttal arguments were riddled with egregious
misconduct, much of which amounted to clear, obvious
error. We are most concerned with trial counsel’s: (1)
personal attacks on defense counsel; (2) personal attacks on
Appellant; and (3) expressing personal opinions, bolstering,
and vouching. We address each in turn.

“[I]t is ... improper for a trial counsel to attempt to win
favor with the members by maligning defense counsel,”
including accusing the defense counsel of fabrication. See
Fletcher, 62 M.J. at 181–82 (citations omitted). As Fletcher
warned, but trial counsel failed to heed, when trial counsel
maligned defense counsel, he risked both turning the trial
into a “popularity contest” and influencing the members
such that they may not have been able to objectively weigh
the evidence against Appellant. Id. “Rather than deciding
the case solely on the basis of the evidence presented, as
is required, the members [could have been] convinced to
decide the case based on which lawyer they like[d] better.”
Id. (internal quotation marks omitted) (quoting United States
v. Young, 470 U.S. 1, 18, 105 S.Ct. 1038, 84 L.Ed.2d 1
(1985)). Indeed, the panel could have been so swayed by trial
counsel’s disparaging remarks that they “believe[d] that the
defense’s characterization of the evidence should not [have
been] trusted, and, therefore, that a finding of not guilty would
[have been] in conflict with the true facts of the case.” Id.
(internal quotation marks omitted) (quoting United States v.
Xiong, 262 F.3d 672, 675 (7th Cir. 2001)). Trial counsel’s
attacks on defense counsel were all the worse given that they
“were gratuitous and obviously intended to curry favor with
the members. [He] drew ... comparisons between [his] style
and that of defense counsel,” framing defense counsel as an
overly imaginative liar, while contrasting himself as a highly
experienced, well-trained prosecutor. 3 Id. at 182.

*11 The trial counsel’s obvious
attempts to win over the [panel] by
putting [him]self in a favorable light
while simultaneously making defense
counsel look like a [liar] who would
say anything to get his client off the
hook were plainly improper. The trial
counsel erroneously encouraged the
members to decide the case based
on the personal qualities of counsel
rather than the facts. Not only did
[his] comments have the potential
to mislead the members, but they
also detracted from the dignity and
solemn purpose of the court-martial
proceedings.

Personal Attacks on Defense Counsel
First, trial counsel accused defense counsel of “misplaced
lying,” and made the defense theory of the case seem
fantastical, saying “defense counsel’s imagination is not
reasonable doubt.” Both statements amount to clear, obvious
error. 2
2

The Government contends trial counsel’s attack on
defense counsel was simply challenging “defense
counsel’s misrepresentation of the record and the
law during closing argument.” If the defense counsel
mischaracterizes the evidence or misstates the law, the
trial counsel may object, ask the military judge for an
instruction, and explain the mischaracterization during
rebuttal argument. But he may not label the defense
counsel a liar or fabricator, nor may he engage in any
argument amounting to prosecutorial misconduct. See
Fletcher, 62 M.J. at 181.

Id.

Appdx A-003

3

United States v. Voorhees, 79 M.J. 5 (2019)

3

As above, during voir dire, trial counsel referred to
himself as “a senior trial counsel” who “travel[s] around
the world, between 200 and 250 days a year, prosecuting
the Air Force’s most serious cases.” He made a statement
with similar implications as he began his rebuttal
argument, saying “Members, I don’t—I don’t go TDY
and leave my family 250 days a year to sell you a story.
I don’t do that.” Together, these statements may have
falsely suggested to the panel that trial counsel was so
experienced he could select and try only winning cases.

Personal Attacks on Appellant
Next, trial counsel also repeatedly attacked Appellant’s
character, calling him “perverted,” “sick,” and a “narcissistic,
chauvinistic, joke of an officer.” At one point, trial counsel
went so far as to describe Appellant as, “[n]ot an officer,
not a gentleman, but a pig.” Later, trial counsel stressed this
theme further, adding, “Disgusting. Disgusting. Deplorable.
Degrading. That’s the nature of the conduct that the accused
committed. That’s the nature of this man.” 4 These attacks on
Appellant also amount to clear error. See Andrews, 77 M.J. at
402 (holding trial counsel’s references to the accused as a liar
and Don Juan to be error).
4

While it was error for trial counsel to use these
adjectives to disparage Appellant, it was not error for
the trial counsel to use these adjectives to describe
Appellant’s conduct. See generally Fletcher, 62 M.J. at
182 (explaining that disparaging comments are improper
when they amount to a personal attack, directed at the
accused; suggesting they do not otherwise amount to
misconduct).

“Disparaging comments are also improper when they are
directed to the defendant himself.” Fletcher, 62 M.J. at 182.
Trial counsel’s word choice served as “more of a personal
attack on the defendant than a commentary on the evidence.”
Id. at 183. “[S]uch conduct is inconsistent with the duty of
the prosecutor to ‘seek justice, not merely to convict.’ ” Id.
at 182 (quoting United States v. White, 486 F.2d 204, 206
(2d Cir. 1973)). Trial counsel had only to demonstrate that
Appellant violated the UCMJ—not that he was perverted,
deplorable, disgusting, chauvinistic, narcissistic, or a pig.
Nor was it necessary for trial counsel to repeat these insults
throughout his argument; in doing so, trial counsel risked
unduly inflaming the passions of the panel. See United States
v. Clifton, 15 M.J. 26, 29, 30 (C.M.A. 1983) (“It is axiomatic
that a court-martial must render its verdict solely on the basis
of the evidence presented at trial” and “it is improper for

counsel to seek unduly to inflame the passions or prejudices
of the court members.” (citations omitted)).
Expressing Personal Opinions, Bolstering, and Vouching
Trial counsel also improperly expressed his personal opinion
about Appellant’s guilt, utilized personal pronouns, bolstered
his own credibility, and vouched for government witnesses.
While a prosecutor may argue that the evidence establishes
an accused’s guilt beyond a reasonable doubt, he is prohibited
from expressing his personal opinion that the accused is
guilty. See Young, 470 U.S. at 7, 105 S.Ct. 1038.
Trial counsel also made the following statement during his
closing argument: “And here’s where attention to detail is
important. Here’s really where the attention to detail—and
I’ve been doing this a long time. I’ve been trying cases a
long time and I’ve quickly learned that attention to detail is
as important as any other skill in the courtroom.”
And during rebuttal:
• “Technical Sergeant [BR] is an outstanding airman;
an outstanding noncommissioned officer in the United
States Air Force.”
• Referring to a Government witness’s testimony: “That
was his perception. That was the truth.”
*12 • “And if there is any doubt in your mind as to
that point or the quality of the United States evidence
on this charge, rely entirely on Senior Airman [HB’s]
credibility. Hang your hat there, because you can.
Because that airman is credible. She testified credibly;
she told you what happened to her.”
• “[Senior Airman HB’s] not lying. It’s the truth. It’s what
happened.”
• “Members, I don’t—I don’t go TDY and leave my family
250 days a year to sell you a story. I don’t do that. And I
don’t stand up here and try to appeal to your emotions. I
think I made that clear in talking about the government’s
presentation of evidence.”
• “But I’m not going to apologize for becoming emotional
when talking about a Major who sexually assaulted a
Senior Airman. I’m not going to apologize for that.”
• “[W]e win. Clearly.”

Appdx A-004

4

United States v. Voorhees, 79 M.J. 5 (2019)

• “I know that the defense counsel’s imagination ... is not
reasonable doubt.” (Emphasis added.)
• “I’m not in the business of convicting innocent people,
but this man is guilty.”
• Appellant is “without a doubt ... guilty.”
These statements are all clear and obvious error.
From voir dire forward, trial counsel tried to convince
the members to convict based on his purported integrity,
credibility, and experience as an accomplished prosecutor,
and vouched for the credibility of his witnesses, rather than
the evidence presented.

The prosecutor’s vouching for the
credibility of witnesses and expressing
his personal opinion concerning the
guilt of the accused pose two
dangers: such comments can convey
the impression that evidence not
presented to the jury, but known to
the prosecutor, supports the charges
against the defendant and can thus
jeopardize the defendant’s right to
be tried solely on the basis of the
evidence presented to the jury; and
the prosecutor’s opinion carries with
it the imprimatur of the Government
and may induce the jury to trust the
Government’s judgment rather than its
own view of the evidence.

to determine whether trial counsel’s improper arguments
were prejudicial: ‘(1) the severity of the misconduct, (2)
the measures adopted to cure the misconduct, and (3) the
weight of the evidence supporting the conviction.’ ” Andrews,
77 M.J. at 402 (quoting Sewell, 76 M.J. at 18). Under
this test, Appellant has the burden to prove that there is a
“reasonable probability that, but for the error, the outcome
of the proceeding would have been different.” Lopez, 76
M.J. at 154 (internal quotation marks omitted) (citation
omitted). Because Appellant failed to demonstrate that trial
counsel’s misconduct was “so damaging” as to call into
question whether the members convicted Appellant on the
basis of the evidence alone, we cannot reverse here. Sewell,
76 M.J. at 18 (internal quotation marks omitted) (citation
omitted); see also Andrews, 77 M.J. at 402 (quoting Sewell,
76 M.J. at 18) (“[T]he third factor [alone] may so clearly
favor the government that the appellant cannot demonstrate
prejudice.” (alterations in original)).
As indicated above, trial counsel’s improper argument was
severe. The misconduct was sustained throughout argument
and rebuttal, occurring with alarming frequency. See Fletcher,
62 M.J. at 184 (listing “the raw numbers—the instances
of misconduct as compared to the overall length of the
argument,” as well as its persistence throughout argument,
as two “Fletcher factors” to consider when determining the
severity of prosecutorial misconduct). Its persistence *13
throughout final arguments was aggravated by the military
judge’s total failure to offer any curative instructions. See id.
(listing “whether the trial counsel abided by any rulings from
the military judge” as another “Fletcher factor”).

Young, 470 U.S. at 18–19, 105 S.Ct. 1038; see also Fletcher,
62 M.J. at 180 (explaining that “use of personal pronouns in
connection with assertions that a witness was correct or to be
believed” is improper).
Prejudice
Although trial counsel’s misconduct amounted to grievous
error, Appellant fails to establish prejudice. “In assessing
prejudice, we look at the cumulative impact of any
prosecutorial misconduct on the accused’s substantial rights
and the fairness and integrity of his trial.” Fletcher, 62
M.J. at 184 (citation omitted). “We weigh three factors

Despite the severity of trial counsel’s misconduct and the
absence of curative measures, however, several other factors
militate against finding prejudice. First, defense counsel’s
failure to object to any of the prosecutorial misconduct is
“some measure of the minimal impact of [the] prosecutor’s
improper argument.” United States v. Gilley, 56 M.J. 113, 123
(C.A.A.F. 2001) (internal quotation marks omitted) (citation
omitted). In Andrews we warned defense counsel that failing
to object to prosecutorial misconduct “may give rise to
meritorious ineffective assistance of counsel claims.” 77 M.J.
at 404. In this case, the record contains some indication that
defense counsel’s failure to object may have been a “tactical
decision” made as part of his case strategy, rather than a
sign of ineffectiveness. See Darden v. Wainwright, 477 U.S.
168, 182, 106 S.Ct. 2464, 91 L.Ed.2d 144 (1986) (finding
no prejudice from prosecutorial misconduct where a defense
counsel made “tactical decision[s]” in case strategy). After

Appdx A-005

5

United States v. Voorhees, 79 M.J. 5 (2019)

standing by and allowing trial counsel’s improper argument
to proceed, defense counsel told the panel that trial counsel’s
argument was merely an emotional appeal, made because the
Government’s case was weak. He described trial counsel’s
argument as “theatrics,” performed as a product of:

a lesson that’s taught at law schools
across the country and in the military
advocacy courses. And it is this: if you
have the facts, argue the facts. If you
have the law, argue the law. If you have
neither, then literally the lesson is to
pound your fist and try to appeal to the
emotions of the panel.

5

In fact, defense counsel simply left it to the members to
decide whether Appellant’s conduct qualified as conduct
unbecoming, arguing as follows: “[I]t’s your call as to
whether or not those comments were just inappropriate
or they went way over the top. I’m not going to tell you
one way or the other.” “Do those charged words ... rise
to the level to be a ... federal crime? Is it inappropriate,
distasteful, or is it way over the top?... But that’s for you
to decide when you go back there and deliberate.”

In addition to defense counsel’s tactical acquiescence and
the members’ unique understanding of the offense charged,
the evidence that Appellant violated Article 133, UCMJ,
“so clearly favor[s] the government that [A]ppellant cannot
demonstrate prejudice.” Sewell, 76 M.J. at 18. To have
convicted Appellant of Article 133, UCMJ, the panel must
have found:

Defense counsel’s argument explains why he acquiesced
to trial counsel’s improper argument—not because he was
ineffective, but because he wanted trial counsel to make a
spectacle of himself. Defense counsel sought to “plac[e] ... the
prosecutors’ comments and actions in a light that was more
likely to engender strong disapproval than result in inflamed
passions against” Appellant. Darden, 477 U.S. at 182, 106
S.Ct. 2464. Put simply, in the context of the entire courtmartial, trial counsel’s arguments were unlikely to prejudice
the panel against Appellant. This is especially true given the
composition of the panel, which leads to our next point.
The panel at Appellant’s court-martial was comprised
of colonels and lieutenant colonels. As senior officers,
these individuals were uniquely situated to assess whether
Appellant’s conduct was unbecoming under Article 133,
UCMJ. See Article 25(d)(2), UCMJ, 10 U.S.C. § 825(d)
(2) (2012) (requiring that the convening authority detail
officers “best qualified for the duty by reason of age,
education, training, experience, length of service, and judicial
temperament” to serve as panel members). After all, these
members too were bound by the Manual for Courts-Martial,
United States (MCM), and required by Article 133, UCMJ,
to act honorably, gracefully, and decently, as officers and
gentlemen. See MCM pt. IV, para. 59.c.(2) (discussing the
traits expected of commissioned officers). Trial counsel’s
arguments were thus unlikely to impede these experienced
officers’ ability to recognize conduct unbecoming and weigh

1. That the accused did or omitted to do certain acts; and
*14 2. That, under the circumstances, these acts or
omissions constituted conduct unbecoming an officer
and gentleman.
MCM pt. IV, para. 59.b. (2016 ed.). 6 In the instant case,
the acts charged in the first element of each specification
alleged Appellant acted sexually inappropriately toward his
subordinates. In one specification, the acts element alleged
that Appellant gave Senior Airman HB a back massage. In the
other four specifications, the acts element alleged Appellant
made inappropriate comments to various subordinates.
“Regardless of trial counsel’s improper arguments, there
was ample evidence in support of” Appellant’s convictions.
Andrews, 77 M.J. at 403. Appellant conceded that he gave
Senior Airman HB a back massage when he argued she
consented to the massage as part of his defense to the Article
120, UCMJ, offense. Each of the other four specifications was
supported by compelling in-court testimony or documented
with physical evidence in the form of text messages.
6

the evidence against Appellant. 5

Because the lower court set aside Appellant’s Article
120, UCMJ, conviction, we only analyzed the weight
of the evidence pertaining to the Article 133, UCMJ,
offenses. Even if trial counsel’s argument swayed the
panel to wrongfully convict Appellant of violating
Article 120, UCMJ, the evidence as to the Article
133, UCMJ, specifications was so strong that Appellant
cannot demonstrate prejudice. Fletcher, 62 M.J. at 184;
Sewell, 76 M.J. at 18.

Accordingly, Appellant’s court-martial was neither perfect,
nor fundamentally unfair. See Darden, 477 U.S. at 183,

Appdx A-006

6

United States v. Voorhees, 79 M.J. 5 (2019)

106 S.Ct. 2464 (affirming the lower court’s finding that
the appellant’s “trial was not perfect ... but neither was
it fundamentally unfair” (internal quotation marks omitted)
(citation omitted)). Although trial counsel’s conduct reveals
a lack of practical legal skills and a level of courtroom
etiquette far below that which we expect of military officers,
judge advocates, and all experienced trial counsel, we are
“confident that the members convicted the appellant on the
basis of the evidence alone.” Fletcher, 62 M.J. at 184. “There
was, therefore, no prejudice to Appellant’s substantial rights.”
Andrews, 77 M.J. at 403.
A Note on Prosecutorial Misconduct
Although the law precludes us from finding plain error, trial
counsel’s performance in this case was not one we would
expect from any lawyer, let alone a “senior” trial counsel.
In every case, and especially a case alleging unbecoming
conduct, trial counsel should take care to remember that
they too are military officers and should conduct themselves
accordingly. In this case, as he attempted to sway the members
to convict Appellant of conduct unbecoming pursuant to
Article 133, UCMJ, trial counsel himself approached the
line of indecorum. Attacking one’s opposing counsel is as
unacceptable as launching ad hominem attacks on the accused
in open court. In our view, the token trait of a good prosecutor
is the ability to be adversarial without being hostile, but
here, unfortunately, trial counsel was openly hostile and petty,
leaving propriety and good advocacy at the courtroom door. 7
7

The Government’s poor decision-making in this case was
not limited to the trial level. In its brief, the Government
acknowledged that “[d]isparaging comments directed
at an accused can be improper,” but argued that “[i]n
this case, trial counsel’s comments were a reasonable
inference from the evidence admitted at trial, and not
outside the norms of fair comment in a court-martial
where the appellant was accused of conduct unbecoming
of an officer.” Brief for the Government at 19, United
States v. Voorhees, No. 18-0372 (C.A.A.F. Jan. 15,
2019). Appellate counsel repeated this sentiment at oral
argument. We find it deeply troubling that experienced
appellate attorneys persistently argued that it is within
“the norms of fair comment” for a trial counsel to refer
to an accused as a “pig,” “a pervert,” and “a joke of an
officer.”

Trial counsel, however, was not the sole attorney at fault
during Appellant’s court-martial. As we admonished in
Andrews, “Military judges are neither mere figurehead[s] nor

are they umpire[s] in a contest between the Government
and accused;” they too have a “sua sponte duty to [e]nsure
that an accused receives a fair trial.” 77 M.J. at 403–04
(alterations in original) (internal quotation marks omitted)
(citations omitted). The military judge in Appellant’s case
simply allowed trial counsel to ramble on with his improper
argument. Similarly, although defense counsel’s failure to
object appears to have been a conscious and tactical choice
in *15 the instant case, we remind all defense counsel
they “owe[s] a duty to the[ir] client[s] to object to improper
arguments early and often.” Id. at 404.
This case aside, the consistent flow of improper argument
appeals to our Court suggests that those in supervisory
positions overseeing junior judge advocates are, whether
intentionally or not, condoning this type of conduct. As
superior officers, these individuals should remind their
subordinate judge advocates of the importance of the
prosecutor’s role within the military justice system and
should counsel them to “seek justice, not merely to convict.”
Fletcher, 62 M.J. at 182 (internal quotation marks omitted)
(citation omitted).
“Every attorney in a court-martial has a duty to uphold
the integrity of the military justice system,” and multiple
experienced attorneys failed to do so here. Andrews, 77 M.J.
at 404.
II. Article 133, UCMJ Mens Rea
Appellant also alleges that the military judge erred when she
failed to instruct the panel on a mens rea for any of the Article
133, UCMJ, specifications. 8 We find no such error.
8

Appellant also alleges the Article 133, UCMJ,
specifications wrongfully omitted words of criminality,
but we disagree. The specifications use the terms
“inappropriate” or “unprofessional” or allege the conduct
in each specification was unbecoming an officer and a
gentleman. These allegations sufficiently contain words
of criminality to state an offense for purposes of this
appeal. See United States v. Maderia, 38 M.J. 494,
496 (C.M.A. 1994) (explaining the language “conduct
unbecoming” was sufficient to state an offense).

“Questions pertaining to the substance of a military
judge’s instructions, as well as those involving statutory
interpretation, are reviewed de novo.” United States v.
Caldwell, 75 M.J. 276, 280 (C.A.A.F. 2016) (citations
omitted). “Because Appellant did not object to the military

Appdx A-007

7

United States v. Voorhees, 79 M.J. 5 (2019)

judge’s failure to instruct the members on a mens rea
requirement ... we review this issue for plain error” as well.
United States v. Haverty, 76 M.J. 199, 208 (C.A.A.F. 2017).
“Military judges are required to instruct members on the
elements of each offense....” United States v. Davis, 73 M.J.
268, 272 (C.A.A.F. 2014) (citations omitted). As noted earlier,
Article 133, UCMJ, contains just two elements: “[t]hat the
accused did or omitted to do certain acts; and [t]hat, under
the circumstances, these acts or omissions constituted conduct
unbecoming an officer and gentleman.” MCM pt. IV, para.
59.b. The military judge adequately instructed the panel on
each specification of Article 133, UCMJ, when she read
the panel the elements as charged in each specification and
provided the following instruction both orally and in writing:
“Conduct unbecoming an officer and a gentleman” means
behavior in an official capacity which, in dishonoring
or disgracing the individual as a commissioned officer,
seriously detracts from his character as a gentleman,
or behavior in an unofficial or private capacity which,
in dishonoring or disgracing the individual personally,
seriously detracts from his standing as a commissioned
officer. “Unbecoming conduct” means misbehavior more
serious than slight, and of a material and pronounced
character. It means conduct morally unfitting and unworthy
rather than merely inappropriate or unsuitable misbehavior
which is more than opposed to good taste or propriety. 9
Appellant contends these instructions were inadequate
because they make no mention of a mens rea requirement.
Presumably, the military judge omitted anything specific
about mens rea from her instructions because Article 133,
UCMJ, contains no explicit mens rea requirement.
9

The military judge’s definition mirrors the MCM’s
definition of conduct unbecoming. MCM pt. IV, para.
59.c.(2).

This case is strikingly similar to Caldwell, in which we held
that maltreatment under Article 93, UCMJ, 10 U.S.C. § 893,
was a military-specific offense, and so the government need
only “prove general intent in order to obtain a conviction.”
75 M.J. at 278. Like Article 133, UCMJ, Article 93, UCMJ,
does not explicitly specify a mens *16 rea. MCM pt. IV,
para. 17.a. As we explained in Caldwell, although it is true
that “wrongdoing must be conscious to be criminal,” 75 M.J.
at 280 (internal quotation marks omitted) (citation omitted),
Congress is not required to include an explicit mens rea in
every article of the UCMJ. Haverty, 76 M.J. at 203 (“[S]ilence

in a criminal statute regarding a mens rea requirement
does not necessarily prevent such a requirement from being
inferred.” (citation omitted)). When a statute is silent as to
mens rea, we “only read into the statute that mens rea which
is necessary to separate wrongful conduct from innocent
conduct.” Caldwell, 75 M.J. at 281 (internal quotation
marks omitted) (citation omitted). A statute’s silence can be
indicative of a general intent scienter. See United States v.
McDonald, 78 M.J. 376, 380 (C.A.A.F. 2019). “[G]eneral
intent merely requires [t]he intent to perform [the actus reus]
even though the actor does not desire the consequences
that result.” Haverty, 76 M.J. at 207 (alterations in original)
(internal quotation marks omitted) (citation omitted). In the
instant case, a general intent mens rea would require only
that Appellant intended to commit the conduct alleged in
each specification—i.e., making inappropriate comments and
massaging his subordinate’s back. It was up to the panel
to determine whether Appellant’s acts constituted conduct
unbecoming. See United States v. Miller, 37 M.J. 133,
138 (C.M.A. 1993) (disagreeing with the appellant that the
evidence was insufficient to prove the conduct unbecoming
element and instead “hold[ing] that ‘a reasonable military
officer would have no doubt that the activities charged in this
case constituted conduct unbecoming an officer.’ ” (quoting
United States v. Frazier, 34 M.J. 194, 198 (C.M.A. 1992))).
Because “there is no scenario where [an officer] who engages
in the type of conduct” Appellant engaged in “can be said to
have engaged in innocent conduct,” we infer a general intent
scienter from Congress’s silence. Caldwell, 75 M.J. at 281.
“We base our conclusion on the unique and long-recognized
importance” of an officer’s behavior “in the United States
armed forces, and the deeply corrosive effect that [indecorous
behavior] can have on the military’s paramount mission to
defend our Nation.” Id.
Conduct unbecoming is a “military offense that was specially
created by Congress and prohibited under its own separate
article ... reflecting” a high level of congressional concern.
Haverty, 76 M.J. at 205 n.10 (quoting Caldwell, 75 M.J.
at 281, 285). “The gravamen of [Article 133, UCMJ] is
that the officer’s conduct disgraces him personally or brings
dishonor to the military profession such as to affect his fitness
to command ... so as to successfully complete the military
mission.” United States v. Schweitzer, 68 M.J. 133, 137
(C.A.A.F. 2009) (internal quotation marks omitted) (citation
omitted). Article 133, UCMJ, was drafted in response to the
fact that “it is the primary business of armies and navies to
fight or be ready to fight wars should the occasion arise.”

Appdx A-008

8

United States v. Voorhees, 79 M.J. 5 (2019)

United States ex rel. Toth v. Quarles, 350 U.S. 11, 17, 76 S.Ct.
1, 100 L.Ed. 8 (1955). By criminalizing conduct unbecoming,
Article 133, UCMJ, is intended to help ensure a “disciplined
and obedient fighting force.” Parker v. Levy, 417 U.S. 733,
763, 94 S.Ct. 2547, 41 L.Ed.2d 439 (1974) (Blackmun, J.,
with whom Burger, C.J., joined, concurring). These traits are
so essential to war fighting capabilities, that this article’s
foundations were established long before the Republic itself.
See Levy, 417 U.S. at 745, 94 S.Ct. 2547 (explaining that
Article 133, UCMJ, originated in “the British antecedents
of our military law,” followed our nation’s founders across
the Atlantic, and was adopted in a similar form by the
Continental Congress in 1775). Because officer behavior is so
important, “criminal liability for [conduct unbecoming] does
not depend on whether conduct actually effects a harm upon
[a] victim,” but rather on whether the officer possessed the
general intent to act indecorously, dishonestly, or indecently.
Caldwell, 75 M.J. at 282; MCM pt. IV, para. 59.c.(2) (“There
are certain moral attributes common to the ideal officer
and the perfect gentleman, a lack of which is indicated by
acts of dishonesty, unfair dealing, indecency, indecorum,
lawlessness, injustice, or cruelty.”). As Justice Blackmun
wrote in Parker v. Levy—soldiers are expected to know the
general difference between right and wrong. 417 U.S. at 762–
63, 94 S.Ct. 2547 (Blackmun, J., with *17 whom Burger,
C.J., joined, concurring) (explaining that soldiers understand
“concepts of ‘right’ and ‘wrong’ ” and that “[f]undamental
concepts of right and wrong are the same now” as they’ve
always been); see also United States v. Meakin, 78 M.J.
396, 404 (C.A.A.F. 2019) (detailing the history and purpose
of Article 133, UCMJ, and noting that “it has historically
been the case that officers are held to a higher standard of
behavior”).
Conscious conduct that is unbecoming an officer:

military’s command structure, and as
we have repeatedly recognized in
the context of dangerous speech in
the armed forces, [t]he hazardous
aspect of license in this area is
that the damage done may not be
recognized until the battle has begun.
We therefore conclude that general
intent sufficiently separates lawful and
unlawful behavior in this context,
and there is no basis to intuit a
mens rea beyond that which we have
traditionally required for Article [133],
UCMJ.

Caldwell, 75 M.J. at 282 (internal quotation marks omitted)
(citation omitted).
The military judge’s instructions adequately explained the
actus reus of Appellant’s crimes—actions that could not,
under the circumstances, have been innocent—and informed
the members that they were to consider Appellant’s conduct
“under the circumstances.” Under our precedent, this
instructional language “can reasonably be understood as
requiring the panel members to determine whether Appellant”
knew that he was engaging in certain conduct. Id. at 283. The
military judge was under no requirement to offer any further
instruction specific to general intent. As such, her instructions
were not erroneous, let alone plainly erroneous.
Judgment
The decision of the United States Air Force Court of Criminal
Appeals is affirmed.

is in no sense lawful. This behavior
undermines the integrity of the
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

Appdx A-009

9

United States Court of Appeals
for the Armed Forces
Washington, D.C.
United States,
Appellee

USCA Dkt. No. 18-0372/AF
Crim.App. No. 38836

v.
ORDER
Paul D. Voorhees,
Appellant

On consideration of Appellant's petition for reconsideration of the Court’s
decision, United States v. Voorhees, 79 M.J. 5 (C.A.A.F. 2019), it is, by the Court,
this 8th day of August, 2019,
ORDERED:
That the petition for reconsideration is hereby denied.
For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Air Force
Appellate Defense Counsel (Zimmermann)
Appellate Government Counsel (Delmare)

Appdx B - 1

